WAIVER

SUPREME COURT OF THE UNITED STATES

 

20-8171

Terry L. Ogle | IMike Parris, Warden
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:

© Tam filing this waiver on behalf of all respondents.

 

oO I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

© I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a yesponse be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: | ee ee |

Date: | G/zy7z0e2l

(Type or print) Name Richard Davison Douglas 7 |
© m. O Ms. O Mrs. O Miss

Firm Office of the Tennessee Attorney ¢ General and Reporter - |

Address P.O. Box 20207 : |

City & State Nashville, Tennessee oe | tip [sra02

Phone (618) 741-4125 | Bmail pavey.Douglas@ag.n.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required,

erry L. Ogle
‘8675
P.O. Box 2000
i ‘artburg, TN 37887
